  Report to Senator James M. Inhofe
      Chairman, Committee on Environment
               and Public Works
                     on
The Office of Inspector General’s investigation
     of the management and operations
         of the Tulsa Airport Authority
U.S. Department of                                 The Inspector General        Office of Inspector General
Transportation                                                                  Washington, D.C. 20590
Office of the Secretary
of Transportation

May 6, 2004

The Honorable James Inhofe
Chairman, Committee on
 Environment and Public Works
United States Senate
Washington, DC 20510

Dear Mr. Chairman:

This responds to your request, signed jointly with Tulsa Mayor Bill LaFortune,
asking that we review certain issues concerning the Tulsa Airport Authority. Your
request stemmed from numerous employee and citizen concerns about the
management and operations of the airport, many of which were raised during a
City-wide performance review conducted by Mayor LaFortune’s office in 2002.

Based on our discussions with your staff and representatives of Mayor LaFortune’s
office, we reviewed the following areas of concern:

    • A financial support agreement for Great Plains Airlines.
    • Contracts receiving Department of Transportation (DOT) Airport
      Improvement Program (AIP) grant funding.
    • FAA oversight of AIP grants.
    • Alleged conflicts of interest involving Authority employees.
    • A specific governmental affairs liaison contract.
    • Parking and landing fees.

A team of investigators and auditors from our office, as well as auditors from the
Defense Contract Audit Agency (DCAA), reviewed these issues. This report
presents our key findings and identifies areas which we are continuing to
investigate1.

1
  At our request, DCAA assisted in reviewing contracts related to airport improvement projects receiving
direct funding from DOT.


Report No. CC-2003-062
                                                                                                             2


Background and Methodology

There are four distinct public entities involved in our review of the operations and
management of the Tulsa Airport Authority. The entities are:

    • The City of Tulsa (hereafter referred to as the City).
    • The Tulsa International Airport and the Richard Lloyd Jones, Jr. Airport (the
      Airports), including the land and improvements, are owned by the City.
    • The Tulsa Airports Improvement Trust (the Trust) leases the Airports from
      the City for the primary purpose of improving the buildings, structures and
      facilities2. The Trust is comprised of the Mayor and four trustees. The
      trustees are appointed by the Mayor and confirmed by the City Council.
    • The Tulsa Airport Authority (the Authority) is an agency of the City. It is
      staffed by City employees who provide the daily management and operation
      of the Airports on behalf of the Trust. The Authority is managed by an
      Executive Director.

The Trust receives AIP grants from DOT’s Federal Aviation Administration (FAA)
and thus is subject to FAA regulations and policy for its award and administration
of AIP-funded contracts3. Where contracts awarded by the Trust do not involve
AIP funding, separate State of Oklahoma procurement criteria apply. Procurement
policies relevant to our review are summarized at Appendix A.

We reviewed information concerning the potential misuse of Airport funds
associated with the Trust’s agreement to purchase property used as collateral for a
loan to Great Plains Airlines. In conjunction with this letter, we have issued our
findings in this specific matter to FAA in a formal audit report, a copy of which is
attached at Appendix B.
2
 The Tulsa Airports Improvement Trust is a public Trust created under the provisions of the Public Trust Act
of Oklahoma, Title 60, Oklahoma Statutes, Section 176 et. seq. The City of Tulsa is designated as the sole
beneficiary of the Trust. The Trust is recognized as the “Public Agency Airport Sponsor” by the Federal
Aviation Administration (FAA) and thus is the recipient of both AIP grant funding and passenger facility
charges (PFCs).
3
  On average, FAA annually provides airport sponsors across the country over $3 billion in AIP grants.
Annually, over the past five years, the Trust has received approximately $9.2 million in AIP grants for airport
improvement projects. Another major revenue source for the Airports that is regulated by FAA are
Passenger Facility Charges (PFCs). Nationwide, airport sponsors receive almost $2 billion per annum in
PFCs and the Tulsa Airports have collected an annual average of $4.5 million in PFCs. Projects funded
under these programs include important airport and passenger safety and security improvements such as
runway improvements, the acquisition of security and communications equipment, and environmental
studies.


Report No. CC-2003-062
                                                                                                  3



Our review also included an examination of 26 AIP-funded professional services
contracts and 19 AIP-funded construction contracts that the Trust awarded between
Fiscal Years (FY) 1999 thru 20034. The Trust received approximately $35 million
in AIP grant money from FAA for projects associated with these contracts during
that period. We also reviewed 13 non-AIP funded Airport professional services
contracts, totaling over $2.8 million. In addition to documentary examination, our
investigation included interviews of numerous Authority and FAA officials.

Applicable Rules for Airport Contracting

There is no single set of procurement standards governing the contracting practices
of airports across the country. In our review, we found three different sets of
procurement standards applicable to contracting for the Airports. The procurement
standards included:

       • FAA regulations and policy must be followed for Trust contracts involving
         AIP grants.
       • State of Oklahoma laws and rules apply to Trust contracts not involving AIP
         grants.
       • City policies apply to Authority contracts not involving AIP grants.

The City policy concerning the selection of architectural and engineering services
does not apply to professional services procurements involving AIP funds because
the policy is not equivalent to the standards set forth in FAA’s Advisory Circular
150/5100-14C. We were told by Authority officials they applied the City policy to
professional services contracts involving AIP funds. Consequently, we found that
the Trust did not meet FAA procurement requirements for five of the contracts we
examined.

A significant factor affecting Trust contracts not involving Federal funds is that
Oklahoma state laws governing public Trusts prescribe no requirements for the
procurement of professional services5. Further, Oklahoma state courts have held
that competitive bidding procedures are not required for contracts for professional
services (e.g., engineers and architects), because these types of services are not
4
  Professional services involve consultation or rendering advice or assistance that are based on the
consultant’s expertise in a given area, e.g., engineering, architecture, planning.
5
    Oklahoma State Statute Title 60, Section 176 et. seq.



Report No. CC-2003-062
                                                                                                     4


subject to uniform specifications6. Consequently, we found that the Trust has
considerable discretion in awarding contracts not involving Federal funds.

Summary of Findings

In brief, we have concerns that the Trust’s involvement in a convoluted transaction
that facilitated a $30 million loan to Great Plains Airlines could result in misuse of
Airport funds. We brought this matter to the attention of FAA, which agreed that
the potential exists for inappropriate use of Airport funds in connection with this
transaction. FAA agreed to implement our recommendations. Based on our audit,
we identified circumstances and issues related to this transaction and the Trust’s
subsequent application to FAA for the collection of Passenger Facility Charges
(PFCs) that warrant additional investigation, which we are pursuing.

Additionally, we found instances where Authority AIP-funded procurements of
professional services—above $25,000 each—did not adhere to competitive
selection procedures as required by FAA criteria. We also found conflicts of
interest on the part of former Authority officials responsible for procurements and
poor recordkeeping practices by the Authority. Compounding these findings is, in
our view, a lack of sufficient oversight on the part of FAA; specifically, we found
an over-reliance by FAA on self-certifications the Authority submitted, attesting to
compliance with FAA competitive selection requirements.

Further, we found that for a prior non-AIP funded governmental affairs liaison
contract awarded by the Trust, the contractor was not required to follow contract
specifications requiring itemized invoices, monthly reports, or documented
expenses. The Trust expended $571,000 on this contract over a three-year period.
Moreover, the Trust is not requiring the new governmental affairs liaison contractor
to submit itemized invoices as specified in the contract.

Our review of landing fees at Tulsa International Airport found that the fees were
not unreasonably high, nor would they drive airlines from serving Tulsa.
Additionally, the Oklahoma State Supreme Court ruled that parking fees at the
Airport did not create an anti-competitive marketplace, and in March 2003, the
Airport voted to raise its basic garage parking fee at the Airport from $5.00 to $6.95
per day beginning in July 2003.



6
    McCaster Construction, Inc. v. Board of Regents of Oklahoma Colleges, Okla. 934 P2d 335 (1997)



Report No. CC-2003-062
                                                                                       5


More specifically, we found the following:

• Financial support agreement for Great Plains Airlines

   We reviewed loan transactions involving the Trust, the Tulsa Industrial
   Authority, and Great Plains Airlines. We found that the Trust entered into an
   agreement with the Industrial Authority that may require the Trust to purchase
   property used as collateral in a loan to Great Plains. We found the Trust entered
   into this agreement without regard to whether there was a valid need to purchase
   the property and without an appraisal. The only documented reference to the
   value of the property we identified was an October 2002 memorandum prepared
   by a Great Plains Airline representative suggesting that its value “may be in the
   $3 million range.” Authority and City officials with whom we spoke told us that
   they did not obtain an appraisal to determine the value of the property prior to
   entering into the loan agreement. Consequently, we have concerns that airport
   funds are at risk for misuse if the Trust is required to fulfill its obligations under
   the agreement in the event Great Plains Airlines defaults on the loan.

   By becoming a party to the real estate transaction to help finance the start-up of
   the airline and agreeing to pay off any outstanding loan balance, the Trust
   incurred a contingent liability that will remain until the airline pays the loan in
   full. Further, FAA policies and procedures prohibit airports from providing
   direct subsidies to airlines. In a legal analysis prepared at the request of Airport
   management concerning FAA’s revenue diversion policy it was noted that:

       In light of the current law, regulations and regulatory pronouncements
       concerning airport requirements for self–sufficiency, the avoidance of
       revenue diversion, and prohibition against direct subsidy of air carrier
       operation or service, we are lead [sic] to the conclusion that to avoid
       regulatory scrutiny, TAIT’s support of the Tulsa Industrial Authority -
       Bank of Oklahoma [BOK] financing for Great Plains Holding
       Company et al. must be in the nature of a real estate transaction. Even
       with the transaction structured in that nature, we are not in a position
       to opine that in the event of a trigger event which would require TAIT
       action under the Support Agreement, the use of airport revenues to
       purchase all or a portion of Air Force Plant No. 3 would not be subject
       to regulatory scrutiny or audit. However, we believe that to the extent
       the real estate transaction can be narrowed by the size, nature or
       character of property and/or facilities encumbered by the TIA-BOK
       transaction, that would dramatically lessen our concern of regulatory
       review and/or audit of the “support” transaction.


Report No. CC-2003-062
                                                                                    6


   In the event that Great Plains Airlines defaults, FAA should take steps to ensure
   that the Authority does not divert revenues intended for legitimate airport
   purposes to pay off the loan. In addition, FAA should evaluate the
   appropriateness of the Great Plains loan transaction and establish policies that
   prevent airport sponsors from entering into agreements that could result in the
   misuse of airport funds.

   The current balance of the loan is estimated at $7 million. Great Plains Airlines
   filed for Chapter 11 bankruptcy on January 23, 2004. As of April 22, 2004, the
   loan had not been declared in default. We are concerned that the Trust prepared
   documentation—including an application submitted in September 2003
   requesting FAA approval to collect additional PFCs—that suggest the Trust’s
   projected cost to acquire the land used as collateral had been inflated after
   concern grew that Great Plains Airlines may be susceptible to default on its loan.
   These circumstances are the subject of continuing investigation by our office.

   Based on our findings, we issued an audit report to FAA, a copy of which is
   attached at Appendix B. Our audit report recommended that (a) FAA require
   the Trust to support any requests to fund property acquisition costs for the
   subject land with a valid appraisal of the property; (b) validate a legitimate need
   to acquire the property to extend the runway and taxiway; (c) ensure that Airport
   funds are not inappropriately disbursed to cover the costs of Great Plains’ loan;
   and (d) evaluate the appropriateness of the Great Plains loan transaction and
   establish policies that will preclude airport sponsors from entering into
   agreements (similar to the one used to support the Great Plains loan) that create
   contingent liabilities and place airport funds at risk of being used for purposes
   not permitted under Federal law.

   As part of the audit process, we will track implementation of the
   recommendations. FAA concurred with our assessment that the potential exists
   for inappropriate use of Airport funds in connection with this transaction. FAA
   is monitoring this situation and agreed to implement our recommendations.
   Further, we are continuing to investigate the circumstances of this transaction.

• Contracts for Airport projects receiving AIP grants

   We found a marked distinction between AIP-funded construction contracts and
   professional services contracts awarded by the Trust. For the 19 construction
   contracts we reviewed, we determined that the Trust consistently followed
   Federal procurement requirements. However, for the professional services


Report No. CC-2003-062
                                                                                                7


    contracts we reviewed, we found that Authority officials (acting on behalf of the
    Trust) could not consistently demonstrate compliance with FAA’s policy
    requiring competitive selection7.

    For example, we found three specific instances where the Trust awarded
    professional services contracts for important security projects (e.g., explosives
    blast effects analysis)—totaling in excess of $120,000—without using
    competitive selection procedures required by FAA policy. Additionally, many
    of the Authority’s files for professional services contracts were incomplete; and
    as such, we were unable to determine whether other professional services
    contracts on AIP-funded projects were competitively awarded as required by
    FAA.

• FAA oversight of AIP-funded contracts

    We found that FAA’s oversight of the selection of professional services
    contractors is presently limited to receiving and filing certifications of
    conformance submitted by the Authority (on behalf of the Trust), without
    independently verifying the accuracy of the certifications. Our findings
    demonstrate that this is not an effective means of ensuring grantee compliance
    with FAA’s AIP procurement requirements. For example, we found two
    instances where Authority officials certified that FAA competitive procurement
    requirements had been met, yet neither the Authority’s files nor our interviews
    gave any indication that the Authority followed required competitive
    procedures.

    Accordingly, we are recommending to FAA that it strengthen its oversight
    program to include, at a minimum, periodic site visits entailing file reviews to
    ensure grantees comply with FAA procurement standards, particularly those
    governing professional services contracts. In our view, such an approach,
    considerably more hands-on in nature than the status quo, would enable FAA to
    carry out its oversight and stewardship responsibilities in a more robust manner.

    One issue that arose in our review was confusion among FAA officials at the
    local and headquarters levels about FAA’s rule for when grantees may use



7
  These AIP-funded contracts are required to comply with FAA Advisory Circular 150/5100-14C, which
provides guidance for airport sponsors to follow in the selection and employment of architectural,
engineering, and planning consultants paid for with AIP funds.


Report No. CC-2003-062
                                                                                    8


   informal procedures for professional services contracting. When using informal
   selection procedures, a grantee should call at least three firms, discuss their
   qualifications to perform the work, and negotiate with the best qualified to arrive
   at cost.

   In speaking with FAA’s program manager for the Airports and officials at FAA
   headquarters, they expressed differences of opinion concerning competitive
   selection requirements of the Airport Improvement Program (AIP). FAA’s
   program manager, based in Oklahoma City, asserted that the competitive
   selection threshold for professional services contracts was $25,000, while a
   headquarters manager maintained that the threshold was $100,000. Yet another
   official, a senior manager in headquarters, advised that the threshold was
   $25,000. Based on this, we are further recommending to FAA that it ensure
   grantees are provided with clear, consistent criteria for AIP-funded contracts.

• Alleged conflicts of interest by Authority officials

   We found instances in which two former Authority officials, who were
   responsible for professional services contracting, engaged in activities which
   gave the appearance of conflicts of interest with individuals from firms whose
   services they had procured. Specifically, we found that these officials accepted
   paid golf outings from contractors. In addition, the spouse of one of the officials
   was employed by a contractor doing business with the Trust and was involved in
   the administration of a contract her firm held with the Trust. The other official
   used a City credit card to pay for the hotel and airfare of a woman with whom he
   was romantically involved in order for her to accompany him on a business trip.
   The official was responsible for recommending and procuring services from the
   firm where the woman worked.

   Both individuals ended their employment with the Authority in late 2002, just
   prior to the completion of the City-wide performance review and the subsequent
   initiation of our review.

• Governmental affairs liaison contract

   Due to the importance of governmental affairs for the Airports, we were asked
   to review the Trust’s governmental affairs liaison contract. We found that the
   Trust expended more than $571,000 for this contract over a three-year period,
   from June 2000 thru May 2003. The contract did not involve Federal funding
   and was non-competitively awarded by the Trust, a practice permitted under


Report No. CC-2003-062
                                                                                                           9


    State procurement standards. When the contract expired in December 2002, the
    Trust continued to pay for this consultant’s services on a month-to-month basis,
    without benefit of a contract. Subsequently, a new governmental affairs
    contract, which was competitively awarded in July 2003, cost nearly 50 percent
    less. Further, we note that while the former and present contracts specified that
    the consultants were to submit itemized invoices for services rendered, the
    Authority has permitted them to submit summary invoices with no description
    of services provided. Thus, there has been, and currently is, no documentation
    for the Authority specifically identifying what services have been rendered. We
    consider the contract requirement for itemized invoices to be a sound business
    practice. Accordingly, the Trust has the opportunity to require consultant
    conformance to this contract provision.

Details

Additional details from our review of the Tulsa Airports are presented as follows:

Airport Improvement Projects receiving DOT grant funds

We found that the Trust followed procurement rules for the 19 AIP-funded
construction contracts we reviewed. However, for the professional services
contracts awarded during the five-year period covered by our review, we found that
for five of the 26 AIP-funded contracts—nearly 20 percent—the Trust did not
employ competitive procedures required by FAA policy for procurements over
$25,000.

FAA policy provides specific guidance to airport sponsors concerning professional
services contractors selected and employed under airport grant programs8. Policy
requirements key to our review were:

        • The consultant selection process should satisfy requirements for open and
          free competition.
        • Public announcements for all projects should be advertised to obtain
          experience and qualification data from potential consultants9.

8
  AC 150/1500-14C Architectural, Engineering, and Planning Consultants Services for Airport Grant
Projects.
9
 Advertisements should be placed in local newspapers with a wide circulation and national trade journals
and magazines.



Report No. CC-2003-062
                                                                                                        10


           • A selection board should review the project criteria, the experience and
             qualification data of consultants, and rank them in order of preference.
           • A report should be prepared with sufficient detail to indicate the extent of
             the review and considerations used to select the consultant.

Specifically, we found the following:

• The Trust had no record of the selection process used to award three
  professional services contracts for the purpose of complying with important
  FAA airport security directives issued subsequent to the September 11th terrorist
  attacks10. An Authority official told us the selection may have been based on a
  memo provided by FAA, or the Transportation Security Administration (TSA),
  which listed consulting firms qualified to complete the security work. TSA’s
  local security director told us they did not issue such a memo, and while we
  found FAA provided a list of qualified firms to the Authority, we also found the
  consultant selected was not on the list.

• On another professional services contract, we found a note in a project file that
  indicated the consultant selection process used by the Authority consisted of two
  engineers “deciding” to use a certain consultant. When we interviewed one of
  the engineers associated with this decision he told us the selection decision was
  likely based on his agreement with his co-worker to use the chosen firm. Yet,
  we found the Trust submitted a consultant selection certification to FAA
  indicating the Trust used a competitive selection process.

       The contract associated with this certification was originally valued at $43,690
       and with the addition of two amendments for construction management services
       the final value of the contract exceeded $120,000. Although the construction
       management amendments were deemed necessary, the Authority (on behalf of
       the Trust) did not meet the competitive procurement requirement when it
       originally awarded the contract, and, by subsequently awarding more work to
       the contractor without using a competitive selection process, fostered a view of
       apparent contractor favoritism held by your constituents.

• We found a negotiation log related to a consultant selection certification
  submitted by the Trust for a geotechnical exploration and quality assurance
  materials testing contract which indicated to us that the Trust did not employ
  appropriate competitive procedures to select the consultant. The log indicated

10
     All three contracts were awarded to the same firm and had an aggregate value exceeding $126,000.


Report No. CC-2003-062
                                                                                                      11


       three engineers selected the consultant based on previously submitted
       qualifications, however, the Authority could not demonstrate to us what the
       previous qualifications referenced in the log were.

       The original value of this contract was $50,000 and due to unanticipated
       decontamination work on the project the consultant requested the total budget
       for the project be increased to $75,000. As of March 2003, only $65,000 had
       been expended on the contract, but we found that the Trust erroneously amended
       the contract an additional $75,000 which increased the total value to $125,000.

       Further, FAA’s program manager did not question the manner in which the
       consultant was selected because he was not certain that this type of professional
       services contract, i.e., materials testing, fell within the meaning of FAA’s
       advisory circular. But, when we reviewed the contract with FAA headquarters
       personnel they opined the services fell within the meaning of the advisory
       circular and were therefore subject to all its provisions including the requirement
       for a competitive selection process.

• We found FAA’s oversight of the consultant selection process has been limited
  to receiving self-certifications submitted by the Trust. Consequently, FAA was
  not aware of the Trust’s non-compliance with the competitive selection
  requirements for the professional services contracts we identified.

       We are recommending to FAA that it (a) increase oversight in this area,
       program-wide, beyond its current practices, and (b) determine whether fiscal
       adjustments to its grants to the Trust are warranted based on our finding of non-
       compliance with FAA competitive selection requirements11.

FAA oversight of AIP grants

We concluded that FAA does not carry out sufficient activities to determine
whether the Airports meet AIP procurement standards, instead relying heavily on
airport self-certifications that AIP requirements have been met. FAA officials with
whom we spoke maintained that the “Single Audit” is the proper vehicle for
ensuring grantee compliance with AIP program requirements12. The Single Audit is

11
     FAA Order 5100.38B, Section 1314(d) permits such adjustments.
12
  The Single Audit Act of 1984 established requirements for audits of States, local governments, and non-
profit organizations expending Federal awards. The AIP grants received by the Trust are subject to audit
under the Act.



Report No. CC-2003-062
                                                                                    12


a risk-based assessment that includes evaluation of the expenditures, financial
statements, and internal controls of a recipient of Federal awards, including all
Federal transportation funding received by a locality. The audits typically test a
number of transactions or procedures to provide the auditor with sufficient evidence
to support an opinion on the locality’s compliance with Federal accounting
standards.

Because the Single Audit does not provide a full, comprehensive review of a grant
recipient, we disagree with FAA’s position. The Single Audit Act does not
preclude FAA from carrying out its own regulatory compliance review activities.
We note that FAA’s AIP Handbook states, in part, the following:

        “The single audit…will not usually coincide with the project accomplishment
        period; nor is a single audit likely to contain sufficient information on the
        project to show all grant requirements have been met…” 13

Accordingly, we are recommending to FAA that it develop a methodology for
targeting and carrying out enhanced oversight activities, such as periodic on-site file
reviews, contractor interviews, and early examination of contractor selection
procedures at airports. Such oversight activities would better assure grantee
compliance with program requirements, thereby increasing the effectiveness of
FAA’s stewardship of the AIP program.

Further, we found a difference of opinion within FAA regarding interpretation of
FAA regulations and rules for AIP-funded projects. For instance, while FAA’s
field program manager in Oklahoma cited a headquarters directive requiring
competitive procedures for any professional services contract exceeding $25,000, a
headquarters manager asserted that this directive did not apply, and told us that the
threshold is $100,000. Yet a third official, located at FAA headquarters, advised
that the $25,000 limit still applies. Given this confusion, we are recommending to
FAA that it issue clear updated guidance to grantees in this important area. Based
on our observations during this review, we consider $25,000 to be an appropriate
threshold for competitive procedures to be required.

Conflicts of interest

We found that two former Airport Authority officials, having substantial
involvement in contracting, engaged in apparent conflicts of interest with
individuals whose services they procured, fueling perceptions of favoritism and
13
     FAA Order 5100.38B, Section 1311.


Report No. CC-2003-062
                                                                                                       13


abuse of professional services contracting. In particular, we found that the former
Deputy Director of Engineering and Facilities, along with the Senior Engineer,
accepted paid golf outings from an Airport contractor, and the Deputy Director
went on annual group hunting trips that included the Airport contractor.


Significantly, we found:

       • The Deputy Director failed to recuse himself from involvement in a
         professional services contract after he began dating (and later married) a
         contractor employee who was rendering key information technology services
         to the Authority.
       • The Deputy Director used a City credit card to pay for this individual’s
         airfare and hotel so that she could accompany him to Florida while he
         attended a conference.
       • Prior to contracting with the firm which employed someone with whom he
         was romantically involved, the Deputy Director ignored a warning from the
         Airport’s Director of Information and Communication Services that a portion
         of the procurement would duplicate the capabilities of existing software.
         (The Deputy Director was responsible for procuring over $100,000 of
         services from this contractor between March 2001 and May 2002.)
       • The Senior Engineer’s spouse was employed by a contractor that held
         professional services contracts with the Trust. He and his spouse both had
         responsibilities for administering the same contract. The Senior Engineer
         also served as the project manager for contracts awarded to his wife’s firm.

       (Note: The Deputy Director retired in December 2002. The Senior Engineer
       resigned from the Authority in November 2002.)

These findings underscore that professional services contracts are considerably
more susceptible to fraud, waste, and abuse based on the lesser standards under
which they are awarded. FAA regulations and policy, along with City policies,
prohibit Authority employees from participating in the administration of contracts if
a real or apparent conflict of interest exists such as accepting anything of monetary
value from a contractor14. Although these policies prohibit such relationships, we
found the Authority does not have an ethics training and awareness program in
place, nor does it require statements of independence from personnel involved in
14
     49 CFR 18.36, AC 150/5100-14C, and City of Tulsa Personnel Policies and Procedures Section 419.



Report No. CC-2003-062
                                                                                                         14


procurements certifying that they have no conflicts of interest. Accordingly, we are
recommending to the Authority that it institute these mechanisms.

Governmental Affairs Liaison Contract

In May 2000, the Trust non-competitively awarded a professional services contract
for a governmental affairs liaison15. The contract was valued at $107,500 for the
remaining portion of that year and included two, one-year option periods which
were originally valued at $185,000 annually. Included in the cost of the contract
was a $5,000 annual allowance for expenses, which was later increased to $10,000
without any explanation or further justification noted in the contract file16.
According to the Authority’s Director, this increase was simply the cost of doing
business. The contract specified that expenses were to be documented, invoices
were to itemize services rendered, and monthly reports addressed the progress of
the project were to be furnished17. We found the Authority, in practice, did not
require the consultant to furnish these records as specified by the contract.

In November 2002, the Trust approved a new contract for the incumbent
governmental affairs consultant, at a cost of $190,000 per year. The Mayor did not
approve the contract on behalf of the City and it was returned to the Trust unsigned.
When the original contract expired on December 31, 2002, the Trust continued to
retain the consultant’s services without a legally binding contract in effect. This
resulted in the payment of an additional $70,000 worth of invoices by the Trust
from January to May 2003.

In July 2003, the Trust published a request for proposals seeking to retain a
governmental affairs liaison to provide expert advice on Federal governmental and
administrative processes. The Trust received 12 responses and the consultant
selected is providing essentially the same types of services specified in the previous
contract at almost 50 percent less cost. This cost savings that resulted from the free
and open competition for this contract is a good example for the Airport of benefits
that can be derived from using a competitive selection process.

One area requiring further strengthening concerns the invoicing for this contract.

15
  The contract did not involve Federal funds, and State procurement rules therefore applied. The State rules
provide that professional services contracts are not subject to competitive bidding requirements.
16
  Authorized expenses included business entertainment, travel, long-distance telephone, postage, document
reproduction, and other documented expenses.
17
     Reports were to be furnished a form acceptable to the Trust.


Report No. CC-2003-062
                                                                                                            15


The Authority is still permitting the current consultant to submit invoices that do
not itemize and describe services rendered as required by the contract. The
Authority should require adherence with this contract provision. There are many
legal and business reasons for insisting on this documentation. One, in particular, is
that such documentation will permit the consultant activity to be audited to ensure
that the governmental affairs services rendered are Airport-related. Since the
consultant is paid with Airport funds, it would be improper for the consultant to
render governmental affairs services on issues relating to the City. The Authority’s
current and past practice provides no sufficient audit trail enabling the Authority to
demonstrate that the consultant services were strictly Airport-related.


Landing and Parking Fees

One concern we reviewed was whether the Tulsa Airports’ landing fees were
unreasonably high, potentially driving airlines out of Tulsa.

A 1999-2000 study on Airport Rates and Charges sponsored by the American
Association of Airport Executives disclosed that the average landing fee for
medium hub airports was $1.96 per 1,000 pounds of gross landing weight. Tulsa
International Airport’s rate during this time period was $1.86. In Fiscal Year
2001/02, Tulsa International Airport increased its landing fee to $2.1018 but has
since lowered its rate to $1.92 as follows:

                         Fiscal Year                    Rate
                         2002/03                        $1.96
                         2003/04                        $1.92

It should be noted that airport fees, including landing fees, are set by the Trust after
negotiation and input from signatory airlines and other users of the airport. There
are 15 airlines that operate at the Tulsa Airport and 13 of these airlines (signatory)
are party to the airport’s agreement that establishes the airport fees19. We also
contacted a representative of a major airline who indicated the airline had no
problem with the amount the airport charged for landing fees.

Additionally, when we began our review there were concerns that vehicle parking
fees at Tulsa International Airport were set low in order to drive competitors out of
18
     Effective January 1, 2002.
19
      Airlines that are not party to the agreement (non-signatory airlines) pay a higher landing fee. This is a
      common practice at all airports.


Report No. CC-2003-062
                                                                                    16


business, thus creating an anti-competitive marketplace. This issue primarily
stemmed from the concerns of a private business owner operating a parking facility
adjacent to the airport. The business owner’s concerns about an anti-competitive
environment were addressed in a March 2003 Oklahoma State Supreme Court
decision, ruling that because the Airport is an Oklahoma public entity, the Airport
may set parking rates it deems necessary, as long as the public interest is served. In
March 2003, the Airport voted to raise its basic garage parking fee at the Tulsa
International Airport from $5.00 to $6.95 per day beginning in July 2003. In
addition, it should be noted that the owner of the private parking facility is still in
operation.


Other Issues

There were two other issues we examined as part of our review: (a) the ability of
the Trust to extend contracts beyond the terms of original procurements; and (b) an
allegation that Authority employees destroyed documents in advance of our review.

• We found that standard language in Trust contracts (administered by the
  Authority) allows for the addition of work beyond the terms of the original
  procurement, thus affording the Authority considerable discretion in extending
  existing contracts. For example, one non-AIP funded contract we reviewed, for
  engineering design work, was non-competitively awarded to a consultant by the
  Authority (on behalf of the Trust) for $49,648, just below the City’s $50,000
  threshold requiring formal competition. With the addition of two contract
  amendments, the total value of the contract ultimately exceeded $125,000.

   Such procurement latitude, along with the silence of State trust laws on
   requirements for professional services procurements, places Trust contracting at
   risk for abuse and fosters the appearance of preferential treatment toward certain
   contractors.

• Early in our review, allegations were raised that Airport staff members had been
  directed to destroy documents or clean-up files in advance of our review. In
  response, we contacted the Authority’s Director and Trust’s Legal Counsel and
  advised them that no documents were to be destroyed. We also interviewed four
  Authority staff members about the alleged shredding. Based on our discussions
  and interviews, we determined that some document shredding had occurred at
  the Authority, but it was not in response to any order to destroy records and we
  were unable to determine what had been shredded.


Report No. CC-2003-062
                                                                                    17


Recommendations

To ensure that the Airport does not inappropriately use PFC or other Airport funds
to purchase the property used as collateral in the Great Plains Airlines loan, we are
recommending FAA require the Airport to:

1. Support any requests for property acquisition with a valid appraisal of the
   property and require that the appraisal appropriately considers the affect of any
   leases on the fair market value of the property.

2. Validate that there is a legitimate need to acquire the property to extend the
   runway and taxiway or to obtain additional hangar space.

In addition, FAA should:

3. Ensure Airport funds are not inappropriately disbursed to cover the cost of Great
   Plains’ loan.

4. Evaluate the appropriateness of the Great Plains loan transaction and establish
   policies that will preclude airport sponsors from entering into agreements
   (similar to the one used to support the Great Plains loan) that create contingent
   liabilities and place airport funds at risk of being used for purposes not permitted
   under Federal law.

Further, we are making the following recommendations to FAA and the Authority:

5. The AIP program compliance issues we addressed during our review are not
   unique to the Trust and the Authority. We have encountered a variety of issues
   related to AIP, as well as PFC, program compliance at other airports across the
   country (e.g., most recently, New Orleans). As such, we are recommending to
   FAA that it form a national working group to study trends and issues related to
   known or identifiable instances of non-compliance in the AIP and PFC
   programs and implement changes to policies or procedures that will correct AIP
   and PFC compliance deficiencies identified by the group.

6. Based on the contracting issues we identified, we recommend FAA determine
   whether any fiscal adjustments to its grants provided to the Trust are warranted
   based on our specific findings of non-compliance with competitive selection




Report No. CC-2003-062
                                                                                   18


   requirements. Further, based on our finding of confusion within FAA as to the
   threshold for formal competitive procedures in AIP-funded contracting for
   professional services, we recommend that FAA issue clear updated guidance to
   grantees.

7. By copy of this report we are recommending to FAA that it develop and
   implement a methodology for targeting and carrying out enhanced oversight
   activities, such as periodic on-site file reviews, contractor interviews, and early
   examination of contractor selection procedures at airports. Such an approach to
   oversight would better assure grantee compliance with program requirements,
   thereby increasing the effectiveness of FAA’s stewardship of the AIP program.

8. Finally, we are recommending to the Authority that it institute a robust ethics
   training and awareness program, as well as require statements of independence
   from personnel involved in contracting certifying that they do not have conflicts
   of interest.

If I can answer any questions or be of further assistance in this or any other matter,
please feel free to contact me at 202-366-1959, or my Deputy, Todd J. Zinser, at
202-366-6767.

Sincerely,



Kenneth M. Mead
Inspector General




Report No. CC-2003-062
                        APPENDIX A




Background on Airport Funding Sources and Procurement Policies
        Background on Airport Funding Sources and Procurement Policies


A major funding source for capital improvements at commercial service airports is
the FAA’s Airport Improvement Program20 (AIP) which is designed to provide
grants to public agencies for the planning and development of public-use airports in
the National Plan of Integrated Airport Systems21. These airports are entitled to
specific amounts of AIP funds with each annual appropriation based on airport
passenger boarding data. Airports also compete for funds from a pool of
discretionary funds earmarked for airport improvements22. For Fiscal Years 1999-
2003 the Tulsa Airports have received approximately $46,000,000 in AIP grants
from the FAA.

Procurements made under the AIP must adhere to the provisions of 49 CFR Part
18.36. Key requirements specified in this regulation include: procurement
transactions will be conducted in a manner providing full and open competition;
requests for proposals will be publicized; grantees will maintain records sufficient
to detail the significant history of a procurement; and no employee, officer or agent
of the grantee shall participate in the selection, award or administration of a contract
supported by Federal funds if a conflict of interest, real or apparent would be
involved.

In an effort to assist airport sponsors in complying with 49 CFR 18.36, the FAA
issued Advisory Circular No. 150/5100-14C (AC 150/5100-14C) which
recommends procedures for airport sponsors to follow when selecting and
employing architectural, engineering, and planning consultants.              The
recommendations contained in AC 150/5100-14C are included in the list of grant
assurances and upon acceptance of a grant they shall be complied with by the
airport sponsor.

The circular defines types of consultant services covered, specifies procedures for
the selection of consultants, and addresses contract format, methods and costs23.
The circular allows for informal selection procedures to be used for procurements
where the cost is estimated to be under $25,00024. Otherwise, the circular
recommends that the selection of consultants utilize a process offering free and

20
   49 USC Chapter 481.
21
   The Airports are included in the NPIAS list.
22
   Recipients of discretionary funds are selected based on a needs based assessment and the availability of
funds.
23
   Architectural, Engineering and Planning consultants.
24
   A sponsor should call at least three firms, discuss their qualifications, and consult with the best qualified
firm to arrive at cost.
open competition, projects be publicly announced in newspapers, trade journals and
magazines, and that a comparative analysis of professional qualifications be used to
select the best qualified consultant.

Another major funding source for airport capital improvements is provided for in
Title 49 United States Code Sec 40117 which permits the Secretary of
Transportation to authorize an eligible agency to impose a passenger facility charge
(PFC) on each paying passenger boarding an aircraft at an airport controlled by the
agency. The Code and related federal regulations (14 CFR 158) require fees
collected under this program to be used for airport related improvement projects
that have been approved by the FAA25. The Trust has been approved to collect this
fee in connection with several improvement projects approved by the FAA26.
Currently, the Airport imposes a $3.00 PFC for passengers enplaned at the Trust
and has collected approximately $20,758,341 in fees for the period Calendar Years
1999 through 200327.

The Airports derive funding from the revenues generated by their operations.
Sources of revenue include fuel sales fees, airport rental lease agreements, parking
and landing fees, and other similar sources of operating revenues. Federal law
requires all airport sponsors receiving federal assistance to use the airport revenues
for the capital or operating cost of the airport28. Any other use of airport revenue is
considered a revenue diversion. For the fiscal year ending June 30, 200229, the
Airport generated operating revenues in excess of $25 million30.

The Trust uses airport revenues to procure services needed to operate the Airports.
In contrast to the federal procurement requirements, the State laws governing trusts,
such as the Tulsa Airport Improvements Trust, are silent on the issue of the
procurement requirements for obtaining professional services31. The only specific
procurement guidance found in the statute is related to construction, labor,
equipment, materials, or repair contracts. Further, Oklahoma public competitive
bidding laws specify that contracts for professional services are not subject to
competitive bidding statutes32.

25
   Projects eligible for PFC collections include air safety or security improvements, reducing aviation noise
surrounding an airport, increasing competition among air carriers, and other similarly approved projects.
26
   The funds are being used to finance improvement projects such as taxiway extensions and reconstruction,
procurement of emergency communication equipment, and rescue and firefighting equipment replacement.
27
   This figure does not include the last quarter of calendar year 2003.
28
   49 USC 40117.
29
   The Airport’s Fiscal Year is July 1 to June 30.
30
   For the same period the year prior, operating revenues were $26 million.
31
   Examples include emergency environmental response services and governmental affairs liaison services.
32
   Oklahoma State Statute Title 61, Section 103.
        APPENDIX B




The Office of Inspector General
Report Number: AV-2004-058
LOAN DEFAULT COULD RESULT IN
  MISUSE OF FUNDS AT TULSA
   INTERNATIONAL AIRPORT
    Federal Aviation Administration
     Report Number: AV-2004-058
       Date Issued: May 6, 2004
   U.S. Department of
                                                              Memorandum
   Transportation
   Office of the Secretary
   of Transportation
   Office of Inspector General


Subject:     ACTION: Loan Default Could Result in Misuse                                          Date:     May 6, 2004
             of Airport Funds at Tulsa International Airport
             AV-2004-058
  From:      Alexis M. Stefani                                                                 Reply to
                                                                                               Attn. of:    JA-10:x60500
             Principal Assistant Inspector General
              for Auditing and Evaluation
       To:   Federal Aviation Administrator

   This report presents the results of our review of potential misuse of airport funds at
   Tulsa International Airport (Airport). Our objective was to determine whether the
   Airport’s agreement to purchase property used as collateral in a loan to Great
   Plains Airlines (Great Plains) could result in the misuse of airport funds.


   RESULTS IN BRIEF
   In responding to a request from Senator James M. Inhofe, we reviewed loan
   transactions involving the Tulsa International Airport.1 Specifically, the Airport
   entered into an agreement with the Tulsa Industrial Authority (TIA)2 that may
   require the Airport to purchase property used as collateral in a loan to Great
   Plains. This agreement appears to have been made without regard to the fair
   market value of the property or whether the Airport had a valid need to purchase
   the property to make airport improvements.

   The Airport planned to use $9.1 million generated from Passenger Facility
   Charges (PFC) to purchase 30 acres of property for a runway and taxiway
   extension. The property the Airport planned to purchase was used as collateral for
   a $30 million loan to Great Plains as part of an agreement between the Airport,

   1
       The Tulsa International Airport is leased to Tulsa Airports Improvement Trust (TAIT). TAIT is a trust sponsored by
       the City of Tulsa for improving the buildings, structures, and facilities of Tulsa area airports. TAIT is the entity that
       the Federal Aviation Administration recognizes for purposes of Airport Improvement Program grants and Passenger
       Facility Charges project approvals. All references to the Airport in this memorandum are synonymous with TAIT.
   2
       The Tulsa Industrial Authority is an agency created to promote the general economic welfare of Tulsa area citizens.
       The City of Tulsa directly benefits from activities of the Authority.
                                                                                              2


TIA, and the Bank of Oklahoma. Under this agreement, if the airline defaults on
the loan, the Airport would purchase the property at an amount equal to the
outstanding debt owed by the airline.

While use of PFC funds to purchase property for airport projects can be
appropriate to enhance capacity or safety,3 this potential property transaction raises
serious questions because (1) the fair market value of the 30 acres the Airport
planned to purchase appears to be significantly lower than the amount of PFC
funds the Airport requested to collect, and (2) prior project descriptions in the
Airport’s capital improvement plans did not identify a need for this property.
Further, the Airport did not provide support in its PFC application to show that the
property was needed to extend the runway and taxiway.

In a September 2003 application, the Airport requested approval to collect and use
approximately $10.2 million in PFC funds to finance a runway and taxiway
extension project, including the acquisition of 30 acres of land. Because the
Airport did not provide sufficient details to clarify its need for the land, the
Federal Aviation Administration (FAA) requested that the Airport provide
supplemental information to support its request, including documentation of the
amount budgeted for the land acquisition. In response, the Airport indicated that
approximately $9.1 million was needed to acquire 30 acres of land. The Airport
did not provide any documentation to indicate the fair market value of the land. In
December 2003, FAA advised the Airport that it would not approve the land
acquisition portion of the project, indicating that it did not have sufficient
information to determine if the land acquisition was an eligible PFC project.

On January 23, 2004, Great Plains filed for Chapter 11 bankruptcy. Although it
received a 90-day extension to repay the loan (originally due in December 2003),
the extension expired on March 21, 2004. Great Plains still owes about $7 million
of the loan amount. If the Bank declares Great Plains in default, the terms of the
support agreement require the Airport to purchase the property for the outstanding
balance of the loan. According to documentation provided to us by an Airport
official, the Airport has until December 2005 to obtain the funds to meet its
obligation to purchase the property.

FAA policies and procedures prohibit airports from providing direct subsidies to
airlines.4 In a legal analysis prepared at the request of Airport management on
FAA’s revenue diversion policy, it was noted that:




3
    49 U.S.C. Section 40117; Passenger Facility Charge, FAA Order 5500.1, (August 9, 2001).
4
    FAA Policy and Procedures Concerning the Use of Airport Revenue, 64 Fed. Reg. 7696, 7709-10,
    (February 16, 1999).
                                                                                 3


      In light of the current law, regulations and regulatory
      pronouncements concerning airport requirements for self-
      sufficiency, the avoidance of revenue diversion, and prohibition
      against direct subsidy of air carrier operation or service, we are
      lead [sic] to the conclusion that to avoid regulatory scrutiny, TAIT’s
      support of the Tulsa Industrial Authority - Bank of Oklahoma
      [BOK] financing for Great Plains Holding Company et al. must be in
      the nature of a real estate transaction. Even with the transaction
      structured in that nature, we are not in a position to opine that in the
      event of a trigger event which would require TAIT action under the
      Support Agreement, the use of airport revenues to purchase all or a
      portion of Air Force Plant No. 3 would not be subject to regulatory
      scrutiny or audit. However, we believe that to the extent the real
      estate transaction can be narrowed by the size, nature or character of
      property and/or facilities encumbered by the TIA-BOK transaction,
      that would dramatically lessen our concern of regulatory review
      and/or audit of the “support” transaction.

By becoming a party to the real estate transaction to help finance the start-up of
the airline and agreeing to pay off any outstanding loan balance, the Airport
incurred a contingent liability that will remain until the airline pays the loan in
full. However, should the loan be declared in default and the Airport be required
to pay off the outstanding loan balance, this action would constitute a direct
subsidy to the airline in violation of FAA policy. Further, should the Airport use
Airport funds to pay off the loan, it would result in either a diversion of Airport
revenue, inappropriate use of PFC funds, or both.

In the event that Great Plains defaults, FAA should take steps to ensure that the
Airport does not divert revenues intended for legitimate Airport purposes to pay
off the loan. In addition, FAA should evaluate the appropriateness of the Great
Plains loan transaction and establish policies that prevent airport sponsors from
entering into agreements that could result in the misuse of airport funds.


Recommendations
To ensure that the Airport does not inappropriately use PFC or other Airport funds
to purchase the property, we are recommending that FAA require the Airport to:

• Support any future requests to fund property acquisition costs for the 30 acres
   of land with a valid appraisal of the property, and

• Validate that there is a legitimate need to acquire the property to extend the
   runway and taxiway.
                                                                                  4


In addition, FAA should:

• Ensure that Airport funds are not inappropriately disbursed to cover the cost of
   the Great Plains loan, and

• Evaluate the appropriateness of the Great Plains loan transaction and establish
   policies that will preclude airport sponsors from entering into agreements
   (similar to the one used to support the Great Plains loan) that create contingent
   liabilities and place airport funds at risk of being used for purposes not
   permitted under Federal law.


BACKGROUND
Early in 2000, a Tulsa economic development group recommended that the City of
Tulsa support a loan to Great Plains. Great Plains would provide direct air service
from Tulsa to U.S. east and west coast locations. City officials believed that
helping Great Plains would fuel economic development in the Tulsa area. The
City of Tulsa transferred 344 acres of land adjacent to the Airport to the TIA so
that TIA could use the land as collateral for the loan to Great Plains. On
December 21, 2000, the Bank of Oklahoma (Bank) and TIA entered into a loan
agreement to issue two revenue notes of $15 million each. TIA then provided a
loan totaling $30 million to Great Plains.

Also on December 21, 2000, the Bank, TIA, and Tulsa Airports Improvement
Trust signed a separate “support agreement” in which the Airport agreed that if
Great Plains defaulted on its loan, the Airport would purchase the property for an
amount equal to the outstanding debt owed by Great Plains plus any other unpaid
amounts due under the loan agreement (i.e., interest and collection costs, which
include attorney fees of a minimum of 15 percent of all sums payable).

In 2001, Great Plains paid back one of the $15 million revenue notes using state-
issued tax credits. Since the agreements were signed, the Bank has disbursed
$8.25 million to Great Plains from the second $15 million note. The remaining
$6.75 million was held in an escrow account to protect the Bank’s interest in the
loan.

Under the terms of the note, Great Plains was required to make monthly payments
until December 21, 2003, at which time it was to have paid the outstanding loan
amount in full. In January 2004, we were informed by an Airport official that the
Bank granted Great Plains a 90-day extension to repay the loan. According to the
City official, Great Plains still owes the Bank approximately $7 million.
                                                                                                                      5


SCOPE AND METHODOLOGY
The audit was conducted between March 2003 and April 2004. Our review
included interviewing officials from the Airport, the City of Tulsa, and FAA;
reviewing Airport documents related to the loan transaction with Great Plains;
reviewing correspondence related to the Airport’s request for PFC funds; and
reviewing FAA policy and procedures related to the use of PFC and Airport
Improvement Program funds. The audit was conducted in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States and included such tests as we considered necessary to provide
reasonable assurance of detecting abuse or illegal acts.


FINDING AND RECOMMENDATIONS
In our opinion, there is a significant risk of the misuse of Airport funds if Great
Plains defaults on the loan and the Airport is required to buy the property used as
collateral.5 The Airport requested approval to use PFC funds to purchase 30 acres
of the property to extend a taxiway and runway.6 The airport could not provide,
nor could we find, a property appraisal that would substantiate the value of the
344 acres used as collateral. However, a Great Plains document indicated that the
value of the collateral may be only $3 million, which is substantially lower than
the $9 million the Airport requested to collect in PFC funds to purchase 30 of the
344 acres. Also, we question whether the Airport has a valid need for the 30 acres
because the need to purchase the land to extend the taxiway and runway was not
identified in the Airport’s description of the runway/taxiway extension project
until 2003, after the risk of a potential default became apparent. Key documents
and our analyses are summarized below.

• In an August 2000 memorandum, Airport management noted that if Great
  Plains defaulted, the Airport could use the following sources or a combination
  of these sources to pay off the loan: “Discretionary funds of the Airport
  Trust…; Imposition of a Passenger Facility Charge; Facility funding under the
  Airline Use and Lease Agreements…; FAA entitlements and/or discretionary
  grants; [or] Special Facility Revenue Bond Financing....”

• In December 2000, the Bank, TIA, and Airport entered into a support
  agreement that obligated the Airport to purchase the property if Great Plains

5
    According to loan and support agreement documentation, 344 acres of land adjacent to the Airport was initially
    provided as collateral for the loan to Great Plains. However, once the airline received its operating certificate or
    within 15 months of the loan, TIA was to transfer all but 25 acres of the land back to the City of Tulsa. Therefore,
    the Airport would be required to purchase the remaining 25 acres at an amount equal to the outstanding loan balance.
6
    Our review of land maps included in the PFC application and loan documents determined that the 30 acres the
    Airport wanted to purchase is part of the 344 acres of land originally used as collateral for the loan.
                                                                                6


   defaulted on its loan. Based on our review, the Airport recognized that FAA
   regulations prohibited it from providing a direct subsidy to an airline;
   therefore, the Airport made a decision to construct the agreement as a real
   estate transaction.

• The amount the Airport agreed to pay for the property if Great Plains defaulted
  was not supported by an appraisal performed in conjunction with the loan.
  Airport and City officials told us that they did not obtain an appraisal to
  determine the value of the property prior to entering into the loan agreement.
  A Great Plains representative indicated in an October 2002 memo that the
  collateral (i.e., property) might be valued in the $3 million range. Further,
  because over 300 acres of the property is leased for another 5 to 20 years, the
  cost of breaking the leases to use the property for Airport improvements may
  reduce the fair market value of the property below $3 million.

• Airport documents show that in February 2002, Great Plains requested an
  extension to pay its January, February, and March 2002 loan payments. Later,
  in September 2002, Great Plains, the Airport, and TIA requested that the Bank
  delay any decision to declare Great Plains in default of its loan. A November
  2002 review commissioned by the mayor of Tulsa concluded that Great Plains
  was at risk of defaulting. Because Great Plains continued to be unable to make
  its monthly payments, in March 2003 the Bank began using the $6.75 million
  escrow account to make the payments. However, the Bank did not declare
  Great Plains in default.

• On January 23, 2004, Great Plains filed for Chapter 11 bankruptcy. Although
  it received a 90-day extension to repay the loan, the extension expired on
  March 21, 2004. Nevertheless, Great Plains still owes about $7 million of the
  loan amount (as estimated by City officials), and the Airport is still liable if
  Great Plains is declared in default of its loan agreement.

• Information presented in three Airport planning documents suggests that the
  cost of the land acquisition project was inflated after it became apparent that
  Great Plains might default, given that Great Plains was unable to make its
  monthly payments in 2002.

   − The Airport’s Five-Year Capital Improvement Plan (CIP) for fiscal years
     (FYs) 2004 through 2008, approved by the Airport in April 2003, states that
     the Airport would need to purchase “land adjacent to the airfield which will
     be needed for the extension of Runway 8/26, Taxiway Charlie, Taxiway
     Echo and additional Hangar space.” The CIP disclosed that the total
     estimated cost of the project was $16.8 million but did not indicate how
     much land was needed or the acquisition cost of the land.
                                                                                                                    7


      − A draft version of the CIP that Airport officials provided to us in
        March 2003 did not mention land acquisition in the narrative description,
        even though the total cost was also $16.8 million.

      − Finally, a third document, a prior year capital improvement project
        summary listing for FYs 2002 through 2009, included the project but did
        not indicate there was a need to acquire land. Also, the cost for the project
        in this plan was $10.6 million less than the amount approved in the
        April 2003 CIP, as is shown in the following table.


       Table. Changes in Cost Estimates for the Runway/Taxiway
                          Extension Project
                                                                              April 2003
                                               Project Summary              Five-Year CIP            Increase in
       Type of Funds                            FYs 2002-2009               FYs 2004-2008               Costs

       Airport Improvement
       Program (Entitlement)                        $4,200,000              $ 5,580,000              $ 1,380,000

       Airport Improvement
       Program (Discretionary)                      $            0          $ 3,900,000              $ 3,900,000

       Passenger Facility Charges                   $2,000,000              $ 7,357,000              $ 5,357,000

       Total                                        $6,200,000              $16,837,000              $10,637,000

       Percentage Increase                                                                                   172%

      Therefore, it appears to us that the CIP costs were increased to justify the
      collection of PFC funds to purchase the land and to offset the cost of the loan
      after it became apparent that Great Plains might default. Further, given that
      correspondence from Great Plains indicated that the collateral (344 acres)
      might be worth about $3 million, we question whether the $9.1 million of PFC
      funds the Airport requested to pay for the 30 acres represents its fair market
      value.

• In September 2003, the Airport submitted an application to the FAA to collect
  and use approximately $10.2 million in PFC funds to finance the runway and
  taxiway extension project.7 The application included the acquisition of
  30 acres of land but did not show the amount budgeted for the land, nor the

7
    The Airport also anticipated using $9.5 million of Airport Improvement Program funds for this project.
                                                                                  8


   transactions that had occurred or would need to occur for the Airport to obtain
   the land. FAA requested that the Airport provide supplemental information to
   justify this request, including documentation of the amount budgeted for the
   land acquisition.

• In November 2003, the Airport responded to FAA’s request for supplemental
  information. The Airport indicated that it needed to collect $9.1 million of its
  request from PFC funds for the land acquisition. This amount was needed to
  provide funding to repay $6.3 million in “Bond Capital” and $2.8 million in
  “Interest Expense.” (The Airport planned to sell bonds to the public to finance
  the initial acquisition cost of the land and use PFC funds to repay the bonds
  and related interest expense when due. This is a normal airport practice and
  allowable under FAA’s PFC procedures.) However, no documentation was
  attached to indicate the fair market value of the land.

• In December 2003, FAA advised the Airport that it would not approve the land
  acquisition portion of the project, indicating that “[g]iven the complexity of the
  land issues,” FAA did not have sufficient information to determine if the land
  acquisition was an eligible PFC project.

As of April 22, 2004, the Bank had not declared Great Plains in default of its loan.
Nevertheless, the terms of the support agreement require the Airport to purchase
the property for the outstanding balance of the loan. The loan payoff and related
fees (estimated by City officials to total about $7 million) may be significantly
higher than the fair market value of the property. We could not determine the true
value of the property because, in the records of the transactions we reviewed, we
found no appraisal. Airport and City of Tulsa officials advised us that an appraisal
was not performed to determine the value of property used as collateral prior to
entering into the loan agreement. The only reference to the value of the property
was an October 2002, memorandum prepared by a Great Plains Airlines
representative indicating that its value “may be in the $3 million range.”
According to documentation provided to us by an Airport official, the Airport has
until December 2005 to obtain the funds to meet its obligation to purchase the
property.

As indicated above, your office has already taken initial steps to require that the
Airport properly support requests to use PFC funds. To ensure that the Airport
does not inappropriately use PFC funds or any other Airport funds to purchase the
property in the future, we recommend that FAA consider the results of this review
in any actions it takes in reviewing runway and taxiway expansion projects at the
Airport or any future requests by the Airport to acquire all or portions of the
344 acres.
                                                                                 9


FAA policies and procedures prohibit airports from providing direct subsidies to
airlines. In a legal analysis prepared at the request of Airport management on
FAA’s revenue diversion policy it was noted that:

      In light of the current law, regulations and regulatory
      pronouncements concerning airport requirements for self-
      sufficiency, the avoidance of revenue diversion, and prohibition
      against direct subsidy of air carrier operation or service, we are
      lead [sic] to the conclusion that to avoid regulatory scrutiny, TAIT’s
      support of the Tulsa Industrial Authority - Bank of Oklahoma
      [BOK] financing for Great Plains Holding Company et al. must be in
      the nature of a real estate transaction. Even with the transaction
      structured in that nature, we are not in a position to opine that in the
      event of a trigger event which would require TAIT action under the
      Support Agreement, the use of airport revenues to purchase all or a
      portion of Air Force Plant No. 3 would not be subject to regulatory
      scrutiny or audit. However, we believe that to the extent the real
      estate transaction can be narrowed by the size, nature or character of
      property and/or facilities encumbered by the TIA-BOK transaction,
      that would dramatically lessen our concern of regulatory review
      and/or audit of the “support” transaction.

By becoming a party to the real estate transaction to help finance the start-up of
the airline and agreeing to pay off any outstanding loan balance, the Airport
incurred a contingent liability that will remain until the airline pays the loan in
full. However, should the loan be declared in default and the Airport be required
to pay off the outstanding loan balance, this action would constitute a direct
subsidy to the airline in violation of FAA policy. Further, should the Airport use
Airport funds to pay off the loan, it would result in either a diversion of Airport
revenue, inappropriate use of PFC funds, or both.

In the event that Great Plains defaults, FAA should take steps to ensure that the
Airport does not divert revenues intended for legitimate Airport purposes to pay
off the loan. In addition, FAA should evaluate the appropriateness of the Great
Plains loan transaction and establish policies that prevent airport sponsors from
entering into agreements that could result in the misuse of airport funds.


RECOMMENDATIONS
To ensure that the Airport does not inappropriately use PFC or other Airport funds
to purchase the property, we are recommending that FAA require the Airport to:
                                                                                  10


1. Support any requests for property acquisition with a valid appraisal of the
   property and require that the appraisal appropriately considers the affect of any
   leases on the fair market value of the property.

2. Validate that there is a legitimate need to acquire the property to extend the
   runway and taxiway or to obtain additional hangar space.

In addition, FAA should:

3. Ensure that Airport funds are not inappropriately disbursed to cover the cost of
   the Great Plains loan.

4. Evaluate the appropriateness of the Great Plains loan transaction and establish
   policies that will preclude airport sponsors from entering into agreements
   (similar to the one used to support the Great Plains loan) that create contingent
   liabilities and place airport funds at risk of being used for purposes not
   permitted under Federal law.


MANAGEMENT RESPONSE AND ACTION REQUIRED
We briefed Agency officials in June 2003 on the need to closely scrutinize any
Airport requests to use Airport funds for purchasing the land used as collateral in
TIA’s loan to Great Plains. We also provided a discussion draft to FAA in
March 2004. FAA management advised us that they have not had an opportunity
to review the underlying transactions or documents pertaining to the Great Plains
loan; therefore, they could not comment on the appropriateness of the Airport’s
involvement in the loan transaction. As a result, we have modified our
recommendation to address their concerns.                FAA agreed with our
recommendations to ensure the Airport does not inappropriately use PFCs, or
other Airport funds, to purchase the property and our conclusion that Airport funds
should not be used to pay off the Great Plains loan. They also agreed to take steps
to advise other airports not to enter into agreements, such as the Great Plains loan,
that would place airport funds at risk of being used for purposes not permitted by
Federal law.

In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your written comments on this report within 30 calendar days.
Please indicate the specific action taken or planned for each recommendation and
the target date for completion. You may provide alternative courses of action that
you believe would resolve the issues presented in this report.

We appreciate the cooperation and assistance provided by your staff during our
review. If you have any questions concerning this report, please call me at
                                                                        11


(202) 366-1992 or Mr. David Dobbs, Assistant Inspector General for Aviation
Audits, at (202) 366-0500.

                                    #
